APPENDIX A
(Judgment and Opinion of the United States Court of Appeals for the
Fifth Circuit)

Case: 20-10790

Document: 00515794055

Page: 1

Date Filed: 03/24/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
March 24, 2021

No. 20-10790
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Jonathan Aaron Leal,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-238-1
____________________________
Before Clement, Higginson, and Engelhardt, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the appeal is
DISMISSED.

APPENDIX B
(Judgment and Sentence of the United States District Court for the
Northern District of Texas)

Case 4:19-cr-00238-P Document 112 Filed 07/22/20

Page 1 of 5 PageID 426

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00238-P(01)
U.S. Marshal’s No.: 59110-177
Laura Montes, Assistant U.S. Attorney
William Biggs, Attorney for the Defendant

JONATHAN AARON LEAL

On November 20, 2019 the defendant, JONATHAN AARON LEAL, entered a plea of guilty as to Count
One of the Indictment filed on August 14, 2020. Accordingly, the defendant is adjudged guilty of such Count,
which involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

21 U.S.C. § 846

Conspiracy to Possess with Intent to Distribute a
Controlled Substance

8/01/2019

One

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on August 14, 2020.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed July 22, 2020.

____________________________________________
MARK T. PITTMAN
U.S. DISTRICT JUDGE

Signed July 22, 2020.

20-10790.107

Case 4:19-cr-00238-P Document 112 Filed 07/22/20

Page 2 of 5 PageID 427

Judgment in a Criminal Case
Defendant: JONATHAN AARON LEAL
Case Number: 4:19-CR-00238-P(1)

Page 2 of 5

IMPRISONMENT
The defendant, JONATHAN AARON LEAL, is hereby committed to the custody of the Federal Bureau
of Prisons (BOP) to be imprisoned for a term of TWO HUNDRED SEVENTY (270) months as to Count One
of the Indictment filed on August 14, 2020. This sentence shall run consecutively with any future sentence
which may be imposed in Case Nos. F1725472 and F1725473, in the 204th Judicial District Court, Dallas
County, Texas, which are unrelated to the instant offense. This sentence shall run concurrently with any future
sentence in the parole revocation, which may be imposed in Case No. F1256232, in the 282nd Judicial District
Court, Dallas County, Texas.
The Court recommends to the BOP that the defendant be housed at an FCI facility within the D/FW
area, if possible. The Court further recommends that the defendant be able to participate in the Residential
Drug Treatment Program, if eligible.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of FIVE
(5) years as to Count One of the Indictment filed on August 14, 2020.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
1) The defendant shall report to the probation office in the federal judicial district where he or she is
authorized to reside within 72 hours of release from imprisonment, unless the probation officer
instructs the defendant to report to a different probation office or within a different time frame;
2) After initially reporting to the probation office, the defendant will receive instructions from the
court or the probation officer about how and when to report to the probation officer, and the
defendant shall report to the probation officer as instructed;
3) The defendant shall not knowingly leave the federal judicial district where he or she is authorized
to reside without first getting permission from the court or the probation officer;
4) The defendant shall answer truthfully the questions asked by the probation officer;
5) The defendant shall live at a place approved by the probation officer. If the defendant plans to
change where he or she lives or anything about his or her living arrangements (such as the people
the defendant lives with), the defendant shall notify the probation officer at least 10 days before
the change. If notifying the probation officer at least 10 days in advance is not possible due to
unanticipated circumstances, the defendant shall notify the probation officer within 72 hours of
becoming aware of a change or expected change;
6) The defendant shall allow the probation officer to visit the defendant at any time at his or her home

or elsewhere, and the defendant shall permit the probation officer to take any items prohibited by
20-10790.108

Case 4:19-cr-00238-P Document 112 Filed 07/22/20

Page 3 of 5 PageID 428

Judgment in a Criminal Case
Defendant: JONATHAN AARON LEAL
Case Number: 4:19-CR-00238-P(1)

Page 3 of 5

the conditions of the defendant's supervision that he or she observed in plain view;
7) The defendant shall work full time (at least 30 hours per week) at a lawful type of employment,
unless the probation excuses the defendant from doing so. If the defendant does not have full-time
employment, he or she shall try to find full-time employment, unless the probation officer excuses
the defendant from doing so. If the defendant plans to change where the defendant works or
anything about his or her employment (such as the position or the job responsibilities), the
defendant shall notify the probation officer at least 10 days before the change. If notifying the
probation officer in advance is not possible due to unanticipated circumstances, the defendant shall
notify the probation officer within 72 hours of becoming aware of a change or expected change;
8) The defendant shall not communicate or interact with someone the defendant knows is engaged in
criminal activity. If the defendant knows someone has been convicted of a felony, the defendant
shall not knowingly communicate or interact with that person without first getting the permission
of the probation officer;
9) If the defendant is arrested or questioned by a law enforcement officer, the defendant shall notify
the probation officer within 72 hours;
10) The defendant shall not own, possess, or have access to a firearm, ammunition, destructive device,
or dangerous weapon (i.e., anything that was designed , or was modified for, the specific purpose
of causing bodily injury or death to another person, such as nunchakus or tasers);
11) The defendant shall not act or make an agreement with a law enforcement agency to act as a
confidential human source or informant without first getting the permission of the court;
12) If the probation officer determines that the defendant poses a risk to another person (including an
organization), the probation officer may require the defendant to notify the person about the risk
and the defendant shall comply with that instruction. The probation officer may contact the person
and confirm that the defendant has notified the person about the risk; and,
13) The defendant shall follow the instructions of the probation officer related to the conditions of
supervision.

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;

20-10790.109

Case 4:19-cr-00238-P Document 112 Filed 07/22/20

Page 4 of 5 PageID 429

Judgment in a Criminal Case
Defendant: JONATHAN AARON LEAL
Case Number: 4:19-CR-00238-P(1)

Page 4 of 5

report in person to the U.S. Probation Office in the district to which the defendant is released within
72 hours of release from the custody of the Federal Bureau of Prisons;
from any unlawful use of a controlled substance. The defendant must submit to one drug test within 15
days of release from imprisonment and at least two periodic drug tests thereafter, as determined by the
court; and,
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of
alcohol and all other intoxicants during and after completion of treatment, contributing to the costs of
services rendered (copayment) at the rate of at least $25 per month.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

20-10790.110

Case 4:19-cr-00238-P Document 112 Filed 07/22/20

Page 5 of 5 PageID 430

Judgment in a Criminal Case
Defendant: JONATHAN AARON LEAL
Case Number: 4:19-CR-00238-P(1)

Page 5 of 5

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

20-10790.111

